APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court of the
State of Utah
(August 22, 2019) . . . . . . . . . . . . . . . . 1a
Appendix B Order in the Third Judicial District
Court, Salt Lake County, State of
Utah
(June 14, 2017) . . . . . . . . . . . . . . . . . 23a
Appendix C 42 U.S.C. § 1396a . . . . . . . . . . . . . . . 34a
42 U.S.C. § 1396k . . . . . . . . . . . . . . . 38a
42 U.S.C.A. § 1396p(a) . . . . . . . . . . . 41a

1a

APPENDIX A
This opinion is subject to revision before final
publication in the Pacific Reporter
2019 UT 51
IN THE
SUPREME COURT OF THE STATE OF UTAH
No. 20170556
[Filed August 22, 2019]
______________________________
JOHN R. LATHAM,
)
Appellant,
)
)
v.
)
)
OFFICE OF RECOVERY SERVICES, )
Appellee.
)
_____________________________ )
Filed August 22, 2019
On Direct Appeal
Third District, Salt Lake
The Honorable Richard D. McKelvie
No. 160904935
Attorneys:
Paul R. Smith, Jeffrey D. Gooch, C. Michael Judd,
Salt Lake City, for appellant

2a
Sean D. Reyes, Att’y Gen., Brent A. Burnett, Asst.
Solic. Gen., Tony S. LeBlanc, Asst. Att’y Gen., Salt
Lake City, for appellee
JUSTICE PETERSEN authored the opinion of the Court,
in which CHIEF JUSTICE DURRANT, ASSOCIATE CHIEF
JUSTICE LEE, JUSTICE HIMONAS, and JUSTICE PEARCE
joined.
JUSTICE PETERSEN, opinion of the Court:
INTRODUCTION
¶1
John R. Latham suffered a stroke and his
injuries were exacerbated by a hospital’s failure to
properly diagnose it. Latham sought compensation
from the hospital for past and future medical expenses
as well as other damages. He ultimately settled his
claim for an amount much less than what he believed
it was worth.
¶2
At the time of his injury, Latham was
receiving Medicaid, which paid for his treatment. When
a third party is legally liable for medical expenses paid
by Medicaid — like the hospital here — federal law
requires that state Medicaid plans seek reimbursement
from the third-party tortfeasor.
¶3
The parties dispute how much of Latham’s
settlement award the Office of Recovery Services
(ORS)1 is permitted to collect. Latham argues ORS may

1

ORS is the Utah Department of Human Services agency tasked
with, among other things, “[c]ollection of medical reimbursement
from responsible third parties to both reimburse and avoid state
Medicaid costs.” Recovery Services, ORS Mission Statement, UTAH

3a
place a lien on only the part of his award allocable to
past medical expenses. And according to Latham’s
calculations, the State’s expenditures far exceed that
portion of his award. He argues that if the State is fully
reimbursed, it would violate a federal Medicaid statute
that prohibits states from imposing a lien on recipient’s
property because ORS would be taking settlement
proceeds intended to compensate him for damages
other than past medical expenses.
¶4
The district court disagreed with this
argument and ruled against Latham on a motion for
judgment on the pleadings. The court held that ORS
was entitled to recover from the portion of Latham’s
settlement award representing all medical expenses,
both past and future.
¶5
Latham appeals. The question before us is
whether ORS may place a lien on and collect from the
portion of Latham’s tort recovery allocable to all
medical expenses, both past and future, or only past
medical expenses. Based on the language of the
relevant federal statutes and United States Supreme
Court precedent, we conclude that ORS may recover
from only that portion of an award representing past
medical expenses. Accordingly, we reverse and remand.

DEP’T OF HUMAN SERVS., http://ors.utah.gov/ors_ mission.htm (last
visited Aug. 13, 2019). ORS is charged with enforcing statutory
claims pursuant to Utah Code section 26-19-401.

4a
BACKGROUND
¶6
Latham suffered a stroke in early 2014.
When he began to experience symptoms, he went to the
hospital. Without conducting a neurological exam,
doctors there examined Latham, provided him with
some pain and anti-nausea medication, and then
discharged him.
¶7
Throughout the day, Latham’s condition
worsened. In the evening, he went by ambulance to a
different hospital. There, doctors performed a brain
scan, which revealed that he had suffered a stroke.
¶8
Latham brought malpractice and negligence
claims against the first hospital. He alleged that the
hospital’s failure to diagnose his stroke caused severe
and permanent injuries.
¶9
At the time of his injuries, Latham received
Medicaid through the State of Utah. The parties agree
that Medicaid paid a total of $104,065.32 in medical
expenses related to Latham’s stroke.
¶10 Generally, Medicaid does not seek
reimbursement from Medicaid recipients when it pays
for their medical treatment. But if a third party is
liable for any or all of a recipient’s injuries, then federal
law requires state Medicaid programs to seek
reimbursement from those third-party tortfeasors. See
42 U.S.C. § 1396a(a)(25)(A)–(B); UTAH CODE § 26-19401.2 And it requires recipients to assign to the State

2

During the course of this litigation, Utah Code section 26-19-5
was renumbered as section 26-19-401. Because the renumbering

5a
any proceeds they receive from the third party. See 42
U.S.C. § 1396k(a)(1)(A).
¶11 To that end, ORS entered into a collection
agreement with Latham that permitted Latham to
“include medical costs paid by the State of Utah when
making a claim against” the hospital and allowed ORS
to recover from funds Latham was able to recover from
the hospital. The collection agreement provided that
“ORS’ recovery shall be the statutory claim, as reduced
by the attorney’s fee of 33.3% of ORS’ recovery.” Both
parties agree that ORS’ potential recovery of
$104,065.32 must be reduced by at least $34,688.44 in
attorney fees. Thus, the most ORS could recover from
the settlement is $69,376.88.
¶12 Latham ultimately settled his claim for
$800,000 — an amount not nearly what he believed his
claim was worth. ORS participated in the settlement
negotiations and approved the agreement. Latham and
ORS agree that the full value of Latham’s claim was
$7,257,972.52. This amount includes, among other
damages, $104,065.32 in past medical expenses paid by
Medicaid and $6,430,614 in future medical expenses
that Medicaid is not currently obligated to pay.
¶13 Latham filed a complaint for declaratory
relief in the district court, seeking a determination of
how much ORS was entitled to collect from his
settlement award. Citing federal Medicaid law, Latham
argued that ORS was permitted to place a lien on only
that portion of the settlement amount attributable to
did not materially affect the text of the statute, we cite to the
current version for the readers’ convenience.

6a
past medical expenses. He argued that the district
court should divide the settlement amount ($800,000)
by the total value of the claim ($7,257,972.52) and then
multiply the resulting ratio (11 percent) by the total
past medical expenses ($104,065.32). According to
Latham’s calculations, that meant ORS’ recovery was
capped at $7,631.46 after attorney fees.
¶14 ORS countered that it was entitled to collect
from the portion of the award representing all medical
expenses — be it for past or future expenses. Under
ORS’ calculation, this meant it could collect from up to
90 percent of the settlement amount (or $720,000),
permitting a full recovery for ORS.
¶15 Latham filed a motion for judgment on the
pleadings, which the district court denied. Instead, the
court entered judgment in favor of ORS, ruling that
ORS could place a lien on the portion of Latham’s
settlement amount representing all medical expenses.
And because $720,000 was greater than the State’s lien
amount, the State could recoup its entire claim of
$69,376.88 ($104,065.32 minus attorney fees of
$34,688.44).
¶16 Latham appeals. We exercise jurisdiction
pursuant to Utah Code section 78A-3-102(3)(j).
STANDARD OF REVIEW
¶17 This court reviews a decision on a motion for
judgment on the pleadings de novo, giving no deference
to the district court’s analysis. See DIRECTV v. Utah
State Tax Comm’n, 2015 UT 93, ¶ 11, 364 P.3d 1036.

7a
ANALYSIS
¶18 The parties dispute how much ORS is
entitled to collect from Latham’s settlement award. The
answer lies in whether federal Medicaid law permits
ORS to attach its lien to settlement funds allocable to
all medical expenses — both past and future — or to
only the portion of the settlement representing past
medical expenses.
¶19 We first analyze applicable federal law and
conclude that ORS may place its lien only on
settlement funds allocable to past medical expenses.
We then address how a district court should make such
a calculation.
I. APPLICABLE FEDERAL LAW
¶20 Medicaid is a federal-state program that
provides medical assistance to residents of
participating states who cannot afford medical care.
See 42 U.S.C. § 1396a(a). In a state’s implementation
of its Medicaid plan, federal law broadly prohibits
states from seeking reimbursement from individual
Medicaid recipients for benefits they have received
(except in some circumstances not relevant here).
Specifically, the law prohibits a state from imposing a
lien “against property of an individual on account of
medical assistance rendered to him [or her] under a
State plan” before his or her death. Id. § 1396p(a) (antilien provision).
¶21 But the third-party liability provisions of the
federal Medicaid law create an exception to this
general rule. If a third party is liable for medical costs
paid by Medicaid on behalf of a recipient, federal law

8a
requires states to first “take all reasonable measures to
ascertain the legal liability of third parties . . . to pay
for care and services available under the plan.” Id.
§ 1396a(a)(25)(A). If the State determines such legal
liability exists and Medicaid has paid for medical costs
for which the third party is liable, then the state plan
must “seek reimbursement for such assistance to the
extent of such legal liability.” Id. § 1396a(a)(25)(B).
Finally, federal law requires participating states to
have in place laws under which the state plan is
considered to have acquired the right of the recipient to
payment by the third party, to the extent that Medicaid
payments have been made. Id. § 1396a(a)(25)(H).
¶22 The third-party liability provisions may be in
tension with the anti-lien provision when a Medicaid
recipient receives a tort recovery that is insufficient to
both cover Medicaid’s expenditures and fully
compensate the recipient for his or her other damages.
The United States Supreme Court provided some
clarification on the interaction of these provisions in
Arkansas Department of Health & Human Services v.
Ahlborn, 547 U.S. 268 (2006).
¶23 In that case, Arkansas resident Heidi
Ahlborn suffered injuries in a car accident and the
Arkansas Department of Health and Human Services
(ADHS) paid medical providers $215,645.30 on her
behalf under the state’s Medicaid plan. Id. at 272–75.
Although the parties agreed that Ahlborn’s total claim
was reasonably valued at $3,040,708.12, the settlement
she received from the tortfeasor was only $550,000. Id.
at 274. At the time, “Arkansas law automatically
impose[d] a lien on the settlement in an amount equal

9a
to Medicaid’s costs.” Id. at 272. Pursuant to that law,
ADHS asserted a lien on Ahlborn’s settlement for the
full amount of its expenditures related to her injury. Id.
at 274.
¶24 Ahlborn filed an action seeking a declaration
that ADHS’ lien violated the anti-lien provision
because the lien’s satisfaction would “require depletion
of compensation for injuries other than past medical
expenses.” Id. She argued that federal law permitted
ADHS to place a lien on only the portion of the
settlement allocable to past medical expenses. The
parties stipulated that “if Ahlborn’s construction of
federal law was correct, ADHS would be entitled to
only the portion of the settlement ($35,581.47) that
constituted reimbursement for medical payments
made.” Id. This was far less than the $215,645.30
necessary to fully reimburse ADHS.
¶25 The district court sided with ADHS, ruling
that Ahlborn had assigned ADHS her right to any
recovery from the third-party tortfeasors to the full
extent of Medicaid’s payments on her behalf. Id. But
the Eighth Circuit reversed, holding that ADHS was
entitled to only that portion of the judgment that
represented payments for medical care. Id. at 275.
¶26 The Supreme Court affirmed the Eighth
Circuit, construing United States Code section 1396a to
allow ADHS to collect from only that portion of
Ahlborn’s settlement that represented medical
expenses. Id. at 282 (“[T]he federal third-party liability
provisions require an assignment of no more than the
right to recover that portion of a settlement that
represents payments for medical care.”). The court

10a
concluded that “[f]ederal Medicaid law does not
authorize ADHS to assert a lien on Ahlborn’s
settlement in an amount exceeding $35,581.47, and the
anti-lien provision affirmatively prohibits it from doing
so.” Id. at 292.
¶27 Here, the district court interpreted Ahlborn
to allow ORS to recover from any of Latham’s
settlement award representing compensation for
medical expenses in general—be it for past or future
costs. The district court reasoned that throughout the
Ahlborn opinion, the Supreme Court referred to the
state’s recoverable interest as that portion representing
“medical expenses” without further limiting the state’s
interest to past medical expenses.
¶28 It is correct that the Ahlborn Court did not
expressly differentiate between past and future
medical expenses in its holding. This has resulted in
litigation of the question presented here in lower courts
throughout the nation. There has been some variance
in courts’ conclusions, but the majority of courts have
held that states may collect from only the portion of a
recipient’s settlement award representing past medical
expenses.3

3

See, e.g., McKinney ex rel. Gage v. Phila. Hous. Auth.,
No. 07–4432, 2010 WL 3364400, at *9 (E.D. Pa. Aug. 24, 2010)
(concluding that Ahlborn does not permit states to encumber
settlement money attributable to future medical expenses to
reimburse itself for past medical expenditures); Price v. Wolford,
No. CIV–07–1076–M, 2008 WL 4722977, at *2 (W.D. Okla. Oct. 23,
2008) (same); Giraldo v. Agency for Health Care Admin., 248 So. 3d
53, 56 (Fla. 2018) (interpreting the plain language of the Medicaid
Act to allow the state to place a lien on only those settlement funds

11a
¶29 We conclude that federal law supports the
majority position that the State may place a lien on
and collect from only that portion of a tort recovery
fairly allocable to past medical expenses. As the
Supreme Court made clear in Ahlborn, the general rule
is that a state cannot seek reimbursement from a
recipient for medical expenses Medicaid has paid on
the recipient’s behalf. The third-party liability
provisions carve out an exception to this rule. So, a
state’s authority to place a lien on a recipient’s tort
recovery is restricted by what the third-party liability
provisions authorize.
¶30

The Supreme Court explained the following:

There is no question that the State can require
an assignment of the right . . . to receive
allocable to past medical expenses); Lugo ex rel. Lugo v. Beth Israel
Med. Ctr., 819 N.Y.S.2d 892, 895–96 (Sup. Ct. 2006) (same); In re
E.B., 729 S.E.2d 270, 288 (W. Va. 2012) (“After a thorough
examination of the Ahlborn decision and the language contained
in [the West Virginia statute], . . . we find that [the statute]
directly conflicts with Ahlborn, insofar as it permits [the state] to
assert a claim to more than the portion of a recipient’s settlement
that represents past medical expenses.”); but see I.P. ex rel.
Cardenas v. Henneberry, 795 F. Supp. 2d 1189, 1197 (D. Colo.
2011) (concluding that the state agency “may seek reimbursement
for its past medical expenses from funds allocated to ‘medical
expenses,’ regardless of whether those funds are allocated for past
or future medical expenses”); In re Matey, 213 P.3d 389, 394 (Idaho
2009) (“The [Ahlborn] [C]ourt made no distinction between
damages for past medical care and those for future medical care.
Nothing in 42 U.S.C. § 1396p indicates that the [s]tate may not
seek recovery of its payments from a Medicaid recipient’s total
award of damages for medical care whether for past, present, or
future care.”).

12a
payments for medical care. So much is expressly
provided for by §§ 1396a(a)(25) and 1396k(a).
And we assume . . . that the State can also
demand as a condition of Medicaid eligibility
that the recipient “assign” in advance any
payments that may constitute reimbursement
for medical costs. To the extent that the forced
assignment is expressly authorized by the terms
of §§ 1396a(a)(25) and 1396k(a), it is an
exception to the anti-lien provision. But that
does not mean that the State can force an
assignment of, or place a lien on, any other
portion of Ahlborn’s property. As explained
above, the exception carved out by
§§ 1396a(a)(25) and 1396k(a) is limited to
payments for medical care. Beyond that, the
anti-lien provision applies.
Ahlborn, 547 U.S. at 284–85 (citation omitted).
¶31 And the third-party liability provisions
authorize the State to seek reimbursement only for
payments it has already made: in other words, past
medical expenses. United States Code section
1396a(a)(25)(B) states that “in any case where such a
legal liability is found to exist after medical assistance
has been made available on behalf of the individual
. . . [,] the State . . . will seek reimbursement for such
assistance to the extent of such legal liability.”4
4

With regard to this provision, the Supreme Court rejected ADHS’
argument that “to the extent of such legal liability” meant the
entirety of a recipient’s settlement was “fair game.” Ark. Dep’t of
Health & Human Servs. v. Ahlborn, 547 U.S. 268, 280 (2006). The
Supreme Court explained this language referred to “the legal

13a
(Emphases added.) This language speaks to what
expenses a state can recover. And it makes clear that
a state is entitled to recover only those expenses it has
already paid — i.e., past medical expenses. But section
1396a(a)(25)(B) does not directly speak to the question
presented here — whether a state’s lien may extend to
the portion of a settlement award that is for future
medical expenses. But section 1396a(a)(25)(H) does.
¶32 Section 1396a(a)(25)(H) states that when a
state acquires a recipient’s right to payment from a
third party, that state acquires only the right to
reimbursement for payments that it has already made:
[T]o the extent that payment has been made
under the State plan for medical assistance in
any case where a third party has a legal liability
to make payment for such assistance, the State
has in effect laws under which, to the extent that
payment has been made under the State plan for
medical assistance for health care items or
services furnished to an individual, the State is
considered to have acquired the rights of such
individual to payment by any other party for
such health care items or services . . . .

liability of third parties . . . to pay for care and services available
under the plan.” Id. (alteration in original) (quoting 42 U.S.C.
§ 1396a(a)(25)(A)). “[In Ahlborn], the tortfeasor has accepted
liability for only one-sixth of the recipient’s overall damages, and
ADHS has stipulated that only $35,581.47 of that sum represents
compensation for medical expenses. Under the circumstances, the
relevant ‘liability’ extends no further than that amount.” Id. at
280–81.

14a
(Emphases added.) The phrase “‘[s]uch health care
items or services’ is most naturally and reasonably
read as referring to those ‘health care items or services’
already ‘furnished’ and for which ‘payment has been
made under the state plan.’” Giraldo v. Agency for
Health Care Admin., 248 So. 3d 53, 56 (Fla. 2018)
(citation omitted). These are past medical expenses.
This section, however, could simply be establishing a
floor for recovery rather than constructing a ceiling.
After all, section 1396a(a)(25)(H) speaks in terms of
what a state must do, not in terms of what a state is
limited to doing. It mandates that a state “ha[ve] in
effect laws under which . . . the State is considered to
have acquired the rights of [an] individual to payment
by any other party for” past medical expenses. It does
not affirmatively foreclose a state from having in effect
laws under which that state is entitled to acquire the
rights of an individual to payment by any other party
for other costs such as future medical expenses, pain
and suffering, and lost wages.
¶33 The Ahlborn decision helps resolve this issue.
There, the Supreme Court interpreted section
1396a(a)(25)(H) as limiting the scope of an assignment
of rights. The Court stated in clear terms that “the
statute does not sanction an assignment of rights to
payment for anything other than medical expenses —
not lost wages, not pain and suffering, not an
inheritance.” Ahlborn, 547 U.S. at 281 (emphasis
added). Reading this language from Ahlborn in
conjunction with the language of section
1396a(a)(25)(H), we conclude that section establishes a
ceiling on the portions of a settlement to which a lien
may extend. And that ceiling limits the lien to the

15a
portion of a settlement representing past medical
expenses.
¶34 We note that this conclusion seems to conflict
with the language of section 1396k. That section
appears to authorize states to acquire the rights to
other portions of the settlement, not just the past
medical expenses portion of the settlement. Section
1396k(a)(1)(A) requires an individual receiving
Medicaid to “assign the State any rights . . . to support
(specified as support for the purpose of medical care by
a court or administrative order) and to payment for
medical care from any third party.” This provision
makes no distinction between past and future
payments for medical care. Section 1396k(b) further
states:
Such part of any amount collected by the State
under an assignment made under the provisions
of this section shall be retained by the State as
is necessary to reimburse it for medical
assistance payments made on behalf of an
individual with respect to whom such
assignment was executed . . . , and the
remainder of such amount collected shall be paid
to such individual.
This provision first makes clear that a state’s right to
reimbursement is only for past medical expenses. This
point is undisputed. But section 1396k(b) then suggests
that an assignment of an individual’s right to payment
may extend to more than that portion of the settlement
representing past medical expenses. Section 1396k(b)
contemplates situations where a “remainder” of the
amount collected under an assignment or lien will be

16a
paid to the individual who received medical assistance.
Yet if a state’s assignment of rights was limited to the
portion of the settlement allocated for past medical
expenses, such a situation would never occur. There
would never be a “remainder” to pay the individual
because the state would collect the entire amount
available under the assignment — an amount
presumptively equivalent to past medical expenses,
which the state is entitled to recover. A remainder
would exist only if the state could draw from the entire
portion of the settlement allocated to “support” or
“payment for medical care.”
¶35 There is, however, a way to resolve this
apparent inconsistency in the statutory scheme.
Section 1396a(a)(25)(H) speaks more specifically to the
issue presented here. And where there is an
inconsistency between related statutory provisions, the
specific provision controls over the general. See
Dairyland Ins. Co. v. State Farm Mut. Auto. Ins. Co.,
882 P.2d 1143, 1146 (Utah 1994). Section 1396k(b)
speaks about the assignment of rights generally. And
the conclusion we derive from that section requires
some inductive reasoning based on the “remainder”
language. The language of section 1396a(a)(25)(H),
meanwhile, speaks directly to the issue presented here.
And when “there is a conflict between a general
provision and specific provision, the specific provision
prevails.” ANTONIN SCALIA & BRYAN A. GARNER,
READING LAW: THE INTERPRETATION OF LEGAL TEXTS
183 (2012). We accordingly conclude that the State may
place a lien on and recover from only that portion of an
individual’s settlement representing past medical
expenses.

17a
¶36 We understand that ORS seeks
reimbursement for only past payments made on
Latham’s behalf. ORS is not attempting to collect
future medical expenses that Medicaid may or may not
pay on behalf of Latham. But, under the Supreme
Court’s logic in Ahlborn, this is precisely why ORS may
not place a lien on any of Latham’s settlement allocable
to future medical expenses. The Court made clear that
the state may require an assignment of, or place a lien
on, only settlement funds representing what the state
is authorized to collect. Ahlborn, 547 U.S. at 284. As
the Supreme Court explained, “Again, the statute does
not sanction an assignment of rights to payment for
anything other than medical expenses — not lost
wages, not pain and suffering, not an inheritance.” Id.
at 281. While the Court did not include “future medical
expenses” in that list, it would have fit. As we have
established, a state is authorized to collect only
payments it has already made — past medical costs.
And while the Ahlborn Court did not expressly
differentiate between past and future medical
expenses, it appears that the Court may have
considered future medical expenses to be distinct from
past medical expenses — with future medical expenses
treated like other compensation belonging to the
recipient. Id. at 273 (“[Ahlborn] claimed damages not
only for past medical costs, but also for permanent
physical injury; future medical expenses; past and
future pain, suffering, and mental anguish; past loss of
earnings and working time; and permanent
impairment of the ability to earn in the future.”
(emphasis added)). And the Court was clear that state
Medicaid plans cannot collect from the portion of a
settlement representing those categories of damages,

18a
as they represent property of the recipient protected by
the anti-lien provision and outside the reach of the
third-party liability provisions. Id. at 284–85.
¶37 Accordingly, we reverse the district court and
conclude that ORS cannot collect from Latham’s
settlement award beyond the portion that can be fairly
apportioned to past medical expenses. As discussed
below, we leave this apportionment to the district court
on remand.
II. REIMBURSEMENT CALCULATION
¶38 Here, the parties to the settlement agreement
assented to a final lump sum, but they did not itemize
or quantify the various damages that amount was
intended to cover. This is not unusual. And it raises a
question numerous courts have confronted since
Ahlborn: how should a court determine what portion of
a tort recovery represents compensation for past
medical expenses in the absence of an explicit
designation by the parties or the factfinder?
¶39 Latham argues that the Supreme Court
answered this question in Ahlborn by endorsing the
following formula: divide the settlement amount by the
total value of the Medicaid recipient’s claim against the
third-party tortfeasor then multiply the resulting ratio
by the amount Medicaid has paid on the recipient’s
behalf. Latham argues the district court erred when it
did not apply this formula.
¶40 Latham is incorrect. The Ahlborn Court did
not endorse any such formula. It did not have to. The
parties in that case stipulated to all relevant numbers,
so the question we face here was not before the Court.

19a
See id. at 274. While the Ahlborn parties apparently
agreed that this ratio accurately reflected the amount
of the recovery representing compensation for past
medical expenses in that case, the Court’s acceptance
of those stipulated facts did not amount to an
endorsement of the parties’ method for arriving at
those figures.
¶41 Despite lacking occasion to address this issue,
the Ahlborn Court nonetheless anticipated the
likelihood that a tort recovery might not include an
itemized allocation of compensation. See id. at 288. The
Court noted that these problems could “be avoided
either by obtaining the State’s advance agreement to
an allocation or, if necessary, by submitting the matter
to a court for decision.” Id. But beyond this statement,
the Court did not provide specific guidance.
¶42 The Supreme Court provided a bit more
direction in Wos v. E.M.A. ex rel. Johnson, 568 U.S.
627, 638 (2013). Wos involved a North Carolina statute
requiring that up to one-third of any damages
recovered by a Medicaid recipient be paid to the state
to reimburse it for injury-related payments. Id. at 630.
The Court rejected this approach, holding that it
violated the anti-lien provision because it allowed the
state to claim a portion of a recipient’s award that was
not attributable to medical expenses. Id. at 636. The
Court criticized,
The defect in [the statute] is that it sets forth no
process for determining what portion of a
beneficiary’s tort recovery is attributable to
medical expenses. Instead, North Carolina has
picked an arbitrary number — one-third — and

20a
by statutory command labeled that portion of a
beneficiary’s tort recovery as representing
payment for medical care.
Id.
¶43 Wos makes clear that if parties do not
stipulate to the portion of an award attributable to past
medical expenses, a court must make a case-specific
factual finding. Arbitrary presumptions will not do.
Beyond that, the Court did not mandate any particular
method of accomplishing this task.
¶44 Ultimately, ORS may place a lien on only
that portion of a settlement or judgment that is fairly
allocable to past medical expenses. When this factintensive issue is presented to a district court, we will
not mandate that the court use any particular method
to make this determination. We leave it to the
discretion of the district court to determine the
appropriate methodology, based on the information at
the court’s disposal. The court might decide that an
evidentiary hearing is necessary, that the ratio formula
is a fair allocation in the case at hand, or that the court
is sufficiently familiar with the facts of the case to
make a determination based solely on oral argument.
See, e.g., McKinney ex rel. Gage v. Phila. Hous. Auth.,
No. 07–4432, 2010 WL 3364400, at *9 (E.D. Pa.
Aug. 24, 2010) (“Having presided over this hotly
contested case for nearly three years, this [c]ourt is in
the best position to assess the factors that would have
influenced the [p]arties’ settlement positions and to
make an ultimate determination of what portion of the
settlement represents compensation for past medical
expenses.”).

21a
¶45 Here, the district court found the following
undisputed facts: Latham settled his claim against the
hospital for $800,000. The total value of his claim was
$7,257,972.52. This amount includes, among other
damages, $104,065.32 in past medical expenses and
$6,430,614 in future medical expenses.
¶46 To determine the portion of Latham’s
settlement from which ORS could collect, the district
court’s methodology resembled the ratio formula used
by the Ahlborn parties. The court determined what
portion of Latham’s total claim value resulted from all
medical expenses — both past and future. Then, the
court “appl[ied] that percentage to the settlement to
determine what amount of the settlement represent[ed]
compensation for medical expenses.” Because 90
percent (or $6,534,679.32) of Latham’s total claim (of
$7,257,972.52) represented medical expenses, the
district court reasoned that approximately 90 percent
(or $720,000) of Latham’s $800,000 settlement was
allocable to medical expenses. Because the court had
ruled that ORS could recover its claim ($69,376.88)
from the portion of the settlement representing all
medical expenses ($720,000), the court allowed ORS to
be fully reimbursed.
¶47 The district court is free to use a ratio
methodology if the court concludes that it results in a
fair allocation under the case at hand. However, it was
error to allow ORS to collect from the portion of the tort
recovery representing future medical expenses.
¶48 Accordingly, we reverse the district court and
remand for a determination of the portion of Latham’s

22a
settlement that is fairly allocable to past medical
expenses.
CONCLUSION
¶49 We reverse the district court’s conclusion that
the State can recover from settlement proceeds
representing both past and future medical costs. ORS
may place a lien on and recover from only that portion
of Latham’s settlement representing past medical
expenses. Accordingly, we reverse and remand to the
district court to proceed in accordance with this
decision.

23a

APPENDIX B
THIRD JUDICIAL DISTRICT COURT
SALT LAKE COUNTY, STATE OF UTAH
SALT LAKE CITY DEPARTMENT
Case No. 160904935
Judge Richard D. McKelvie
[Filed June 14, 2017]
___________________________________
JOHN R. LATHAM, an individual,
)
Plaintiff,
)
)
vs.
)
)
OFFICE OF RECOVERY SERVICES, )
an agency of the State of Utah,
)
Defendant.
)
___________________________________ )
ORDER
THIS MATTER is before the Court on a Motion for
Judgment on the Pleadings (Motion) filed by Plaintiff
John R. Latham. The parties briefed the issues and the
Court heard argument on May 1, 2017. During oral
argument, Defendant Office of Recovery Services (ORS)
cited authority not contained in its briefing.
Consequently, the Court allowed Latham an
opportunity to file a supplemental brief addressing the
newly-raised authority. Latham’s supplemental brief
has now been filed and the matter is ready for decision.

24a
Having carefully reviewed the record and considered
the arguments of counsel, the Court now issues the
following Order.
Background
This case involves a dispute between Latham and
ORS about how to split settlement proceeds from a
personal injury action that Latham pursued against
Intermountain American Fork Hospital (Hospital).
In the underlying personal injury action, Latham
alleged that the Hospital failed to properly diagnose his
medical condition, which caused him significant
injuries. The following facts related to the underlying
personal injury action are undisputed for purposes of
the instant action:
1. Latham settled his claim against the Hospital
for $800,000 as evidenced by a Mediation
Memorandum attached to Latham’s Complaint.
2. Latham’s claim against the Hospital was worth
$7,257,972.52. This amount includes
$104,065.32 in past medical expenses and
$6,430,614.00 in future medical care.1
3. ORS participated in the settlement negotiations
and signed off on the Mediation Memorandum.

1

In breaking down the value of his claim, Latham lists separate
categories of expenses that add up to more than the “total value”
of the claim. The Court refers to the “total value” identified by
Latham because the discrepancy is not material to the Court’s
decision.

25a
4. The Mediation Memorandum does not indicate
what portion of the settlement was for past or
future medical expenses.
5. Medicaid paid $104,065.32 on Latham’s behalf
for medical care related to the underlying
personal injury action.
6. In connection with the underlying personal
injury action, Latham and ORS executed a
Collection Agreement. The Collection Agreement
allowed Latham to “include medical costs paid
by the State of Utah when making a claim
against” the Hospital. The Collection Agreement
provides that “ORS’ recovery shall be the
statutory claim, as reduced by the attorney’s fee
of 33.3% of ORS’ recovery.”2
7. ORS’s portion of the attorney fees under the
Collection Agreement is $34,688.44.
8. Thus, the most ORS is entitled to receive from
the settlement is $69,376.88.
Latham initiated the instant action, seeking a
declaration from the Court that ORS is entitled to only
$7,631.46 of the settlement. ORS answered, denying
“that it should only be entitled to $7,631.46 and
request[ing] that the Court enter a judgment of
$69,376.88 in the State’s favor.” Latham now seeks
judgment on the pleadings.
2

The Collection Agreement also contemplates ORS paying a
proportionate share of the costs of the underlying personal injury
action, but Latham has expressly waived this provision. (Latham’s
Mot. for J. on the Pleadings at 9 n. 6.)

26a
Standard
Rule 12(c) of the Utah Rules of Civil Procedure
allows a party to move for judgment on the pleadings
after the pleading stage has closed. “A court may enter
judgment on the pleadings when the moving party is
entitled to judgment on the face of the pleadings
themselves.” Mountain America Credit Union v.
McClellan, 854 P.2d 590, 591 (Utah Ct. App. 1993),
cert. denied 862 P.2d 1356. Such relief is appropriate
only where the non-moving party would, as a matter of
law, be unable to prevail under the facts alleged. Id. “It
must appear to a certainty that the plaintiff would not
be entitled to relief under any state of facts which could
be proved in support of its claim before a judgment on
the pleading may be granted.” Securities Credit Corp.
v. Willey, 1 Utah 2d 254, 257, 265 P.2d 422, 424 (1953)
(citations omitted). Moreover, motions for judgment on
the pleadings “are generally not favored by the courts,
and when made great liberality in construing the
assailed pleading should be allowed.” Harman v.
Yeager, 100 Utah 30, 110 P.2d 352, 353 (1941)
(citations omitted); see also MBNA America Bank, NA.
v. Williams, 2006 UT App 432.
Discussion
The parties agree that ORS is entitled to some
portion of the settlement proceeds, but disagree on the
amount. At the heart of the disagreement is how to
calculate ORS’ portion of the settlement in light of the
United States Supreme Court’s decision in Arkansas
Dept. of Health and Human Services v. Ahlborn, 547
U.S. 268, 126 S.Ct. 1752 (2006).

27a
In Ahlborn, Heidi Ahlborn was injured in a car
accident and Medicaid paid $215,645.30 on her behalf.
Ahlborn sued the other driver and ultimately settled
for $550,000. The parties did not allocate the
settlement between categories of damages. Pursuant to
a state statute, the State of Arkansas asserted a lien
against the settlement for the full amount of its costs.
Ahlborn sued for a declaration that the State of
Arkansas’ lien violated federal law. In the declaratory
action, Ahlborn and the State of Arkansas stipulated
that Ahlborn’s underlying personal injury claim was
worth $3,040,708.12 and, thus, “the tortfeasor ha[d]
accepted liability for only one-sixth of [Ahlborn’s]
overall damages[.]” Id. at 280. Importantly, Ahlborn
and the State of Arkansas also stipulated that “only
$35,581.47 of that sum represents compensation for
medical expenses.” Id. The State of Arkansas argued
that it was entitled to the full amount of its lien—
regardless of how much of the settlement represented
compensation for medical expenses—while Ahlborn
argued that the State of Arkansas was only entitled to
the portion of the settlement that was allocated to
medical expenses.
Ultimately, the United States Supreme Court sided
with Ahlborn. The court held that under federal law
the State of Arkansas could lien only the portion of the
settlement that represented compensation for medical
expenses. Because the parties stipulated that only
$35,581.47 of the $550,000 settlement represented
compensation for medical expenses, the court concluded
that the State of Arkansas was entitled to only that
amount.

28a
Ahlborn makes clear that a state may only lien the
portion of a settlement that represents compensation
for medical expenses. But Ahlborn does not dictate how
to calculate that amount when not stipulated to by the
parties.
Latham argues that the Court should calculate
ORS’ portion of the settlement by applying the same
formula used by the parties to calculate the stipulated
amounts in Ahlborn. But Latham fails to explain why
ORS should be bound by the stipulation of strangers.
That the Supreme Court used the parties’ stipulated
amounts in Ahlborn is not a tacit endorsement of the
formula used by the parties to produce the stipulated
amounts. Court’s routinely give effect to parties’
stipulations of fact without examining the underlying
rationale or wisdom of the stipulations. See In re E.H,
2006 UT 36, ¶ 22, 137 P.3d 809 (stating that “parties
are generally free to agree upon facts subject to judicial
application of the law”); Davis v. Davis, 2001 UT App
225, ¶ 10, 29 P.3d 676 (reasoning that a “stipulation
constitutes an agreement of the parties that all the
facts necessary to support it . . . pre-existed and would
be sustained by available evidence, had not the
agreement of the parties dispensed with the taking of
evidence”); State v. Moa, 2012 UT 28, ¶ 31, 282 P.3d
985 (concluding that based on defense counsel’s
stipulation that the defendant’s plea was taken in
compliance with Rule 11, “there was no reason for the
court to examine whether [the defendant] was in fact
informed of all the elements of the offense”). Latham’s
reliance on the Ahlborn parties’ stipulation as
establishing a de facto formula for calculating the

29a
amount of a settlement representing compensation for
medical expenses is misplaced.
In the Court’s view, a better approach is to
determine what percentage of the underlying claim’s
total value represents medical expenses and then apply
that percentage to the settlement to determine what
amount of the settlement represents compensation for
medical expenses. In the instant action, this
determination is simple because the parties have
agreed to the relevant figures. As explained by ORS:
The State has accepted Plaintiff’s valuation of
the case at $7,257,972.52, as well as the
valuation of past medical expenses at
$104,065.32 and future medical expenses at
$6,430,614.00. This valuation comes to a total of
$6,534,679.32 of medical expenses, which
represents 90% of the total valuation of the case.
As medical expenses represent 90% of the total
value of the case, then they should represent
90% of the settlement or $720,000.00 of the
$800,000. $720,000.00 is the pool from which the
State is entitled to recover its lien of $69,376.88.
Because $720,000.00 is greater than the State’s
lien amount of $69,376.88, the State is entitled
to receive the full amount of its lien because the
$720,000.00 is the portion that represents
medical expenses. Thus, the State is entitled to
$69,376.88 as reimbursement of the Medicaid
monies paid to Plaintiff[.]
(State’s Mem. in Opp’n to Mot. for J. on the Pleadings
at 9.)

30a
Where, as here, the parties agree on what
percentage of the underlying claim’s total value
represents compensation for medical expenses then,
absent some indication to the contrary, it is reasonable
to conclude that the same percentage of the settlement
represents compensation for medical expenses.
Latham argues that, under Ahlborn, ORS should be
entitled to only the portion of the settlement that
represents compensation for past medical expenses.
But nothing in Ahlborn draws that distinction.
Throughout Ahlborn, the Supreme Court refers to the
state’s interest in the settlement as that portion
representing “medical expenses.” Nowhere does the
Supreme Court further limit the state’s interest to past
medical expenses. The Court declines to impose a
qualification not found in Ahlborn.
The Court notes that courts in other jurisdictions
are split on whether to limit the state’s recovery to the
portion of a settlement that represents past medical
expenses. The Court has reviewed the conflicting case
law and is persuaded by the reasoning of the courts
that do not restrict the state’s recovery to past medical
expenses. For example, the Idaho Supreme Court
reasoned that:
Under Ahlborn, a number of damage categories
were put off limits to state Medicaid
reimbursement claims on the grounds that they
were the “property” of the Medicaid recipient
and thereby shielded by 42 U.S.C. § 1396p, the
anti-lien provision of the federal Medicaid law.
See Ahlborn, 547 U.S. at 283, 126 S.Ct. at 1762,
164 L.Ed.2d at 473. Thus, a state may not seek

31a
reimbursement from damages awarded for lost
earnings, lost household services, non-economic
injury and the like because, according to the
Supreme Court, those damage categories are the
property of the Medicaid recipient. However, the
Supreme Court specifically stated that damages
received for medical care did not constitute
property subject to the anti-lien provisions. Id.
at 284, 126 S.Ct. at 1763, 164 L.Ed.2d at 473.
The court made no distinction between damages
for past medical care and those for future
medical care. Nothing in 42 U.S.C. § 1396
indicates that the State may not seek recovery of
its payments from a Medicaid recipient’s total
award of damages for medical care whether for
past, present, or future care.
In re Matey, 147 Idaho 604, 608–09, 213 P.3d 389,
393–94 (2009); see also Giraldo v. Agency for Health
Care Administration, 208 So.3d 244, 252 (Fla. 1st DCA
2016) (noting the split of authority, before choosing “to
align ourselves with what we believe are the better
reasoned decisions of those courts which have held that
a state agency may secure payment from both past and
future recoveries for medical expenses”).
Not only does the Court find this reasoning to be
most persuasive, but the Court also finds that this
reasoning aligns most closely with that found in Utah’s
pre-Ahlborn decisions. See, e.g., Camp v. ORS, 779 P.2d
242 (1989) (stating that “[w]e also believe that ‘[t]he
legislature . . . weighed medical recipients’ need to be
compensated for their injuries against the need for
conservation of public funds and determined that the

32a
public funds have priority”’). Moreover, this reasoning
is consistent with the statement in Ahlborn that
federal law “requires . . . that the State be paid first out
of any damages representing payments for medical care
before the recipient can recover any of her own costs for
medical care.” Ahlborn, 126 S.Ct. at 1762 (emphasis
added). Limiting the state’s recovery to past medical
expenses would allow the recipient to recover some of
his costs for medical care at the expense of the state.
This result would be contrary to Ahlborn.
Conclusion
Based on the foregoing, the Court concludes that
ORS is entitled to $69,376.88 of the settlement between
Latham and the Hospital. Accordingly, the Motion is
DENIED and judgment on the pleadings is hereby
awarded in favor of ORS.3 No additional order is
necessary.
DATED this 14th day of June, 2017.

3

Although ORS did not separately move for judgment on the
pleadings, the Court may grant the appropriate relief when under
the law such relief is required. See Christensen v. Farmers Ins.
Exch., 443 P.2d 385, 389 (Utah 1968) (“When a party moves for
summary judgment, we think the court can give a judgment
against him as well as for him when under the law such a ruling
is required . . . . While there is a division in the authorities . . . we
think the better procedure is for the court to grant the appropriate
relief when there is no unresolved issue of any material fact to be
determined.”).

33a
BY THE COURT:
/s/
Richard D. McKelvie
DISTRICT JUDGE
CERTIFICATE OF NOTIFICATION
I certify that a copy of the attached document was sent
to the following people for case 160904935 by the
method and on the date specified.
MANUAL EMAIL: TONY S LEBLANC
tleblanc@utah.gov
MANUAL EMAIL: PAUL R SMITH
psmith@joneswaldo.com
Date: 06/14/2017

/s/ MCKAE MARRIOT
Deputy Court Clerk

34a

APPENDIX C
1. 42 U.S.C. 1396a provides in pertinent part:
State plans for medical assistance
(a) Contents
A State plan for medical assistance must–
(25) provide–

*****

(A) that the State or local agency administering
such plan will take all reasonable measures to
ascertain the legal liability of third parties
(including health insurers, group health plans (as
defined in section 607(1) of the Employee
Retirement Income Security Act of 1974 [29 U.S.C.
1167(1)], service benefit plans, and health
maintenance organizations) to pay for care and
services available under the plan, including–
(i) the collection of sufficient information (as
specified by the Secretary in regulations) to
enable the State to pursue claims against such
third parties, with such information being
collected at the time of any determination or
redetermination of eligibility for medical
assistance, and
(ii) the submission to the Secretary of a plan
(subject to approval by the Secretary) for
pursuing claims against such third parties,
which plan shall be integrated with, and be

35a
monitored as a part of the Secretary’s review of,
the State’s mechanized claims processing and
information retrieval systems required under
section 1396b(r) of this title;
(B) that in any case where such a legal liability
is found to exist after medical assistance has been
made available on behalf of the individual and
where the amount of reimbursement the State can
reasonably expect to recover exceeds the costs of
such recovery, the State or local agency will seek
reimbursement for such assistance to the extent of
such legal liability;
(C) that in the case of an individual who is
entitled to medical assistance under the State plan
with respect to a service for which a third party is
liable for payment, the person furnishing the
service may not seek to collect from the individual
(or any financially responsible relative or
representative of that individual) payment of an
amount for that service (i) if the total of the amount
of the liabilities of third parties for that service is at
least equal to the amount payable for that service
under the plan (disregarding section 1396o of this
title), or (ii) in an amount which exceeds the lesser
of (I) the amount which may be collected under
section 1396o of this title, or (II) the amount by
which the amount payable for that service under
the plan (disregarding section 1396o of this title),
exceeds the total of the amount of the liabilities of
third parties for that service;
(D) that a person who furnishes services and is
participating under the plan may not refuse to

36a
furnish services to an individual (who is entitled to
have payment made under the plan for the services
the person furnishes) because of a third party’s
potential liability for payment for the service;
(E) that in the case of prenatal or preventive
pediatric care (including early and periodic
screening and diagnosis services under section
1396d(a)(4)(B) of this title) covered under the State
plan, the State shall—
(i) make payment for such service in
accordance with the usual payment schedule
under such plan for such services without regard
to the liability of a third party for payment for
such services; and
(ii) seek reimbursement from such third
party in accordance with subparagraph (B);
(F) that in the case of any services covered under
such plan which are provided to an individual on
whose behalf child support enforcement is being
carried out by the State agency under part D of
subchapter IV of this chapter, the State shall—
(i) make payment for such service in
accordance with the usual payment schedule
under such plan for such services without regard
to any third-party liability for payment for such
services, if such third-party liability is derived
(through insurance or otherwise) from the
parent whose obligation to pay support is being
enforced by such agency, if payment has not
been made by such third party within 30 days
after such services are furnished; and

37a
(ii) seek reimbursement from such third
party in accordance with subparagraph (B);
(G) that the State prohibits any health insurer
(including a group health plan, as defined in section
607(1) of the Employee Retirement Income Security
Act of 1974 [29 U.S.C.A. § 1167(1)], a service benefit
plan, and a health maintenance organization), in
enrolling an individual or in making any payments
for benefits to the individual or on the individual’s
behalf, from taking into account that the individual
is eligible for or is provided medical assistance
under a plan under this subchapter for such State,
or any other State; and
(H) that to the extent that payment has been
made under the State plan for medical assistance in
any case where a third party has a legal liability to
make payment for such assistance, the State has in
effect laws under which, to the extent that payment
has been made under the State plan for medical
assistance for health care items or services
furnished to an individual, the State is considered
to have acquired the rights of such individual to
payment by any other party for such health care
items or services;
*****
(45) provide for mandatory assignment of rights of
payment for medical support and other medical care
owed to recipients, in accordance with section 1396k of
this title;
*****

38a
2. 42 U.S.C. 1396k provides:
Assignment, enforcement, and collection of
rights of payments for medical care;
establishment of procedures pursuant to State
plan; amounts retained by State
(a) For the purpose of assisting in the collection of
medical support payments and other payments for
medical care owed to recipients of medical assistance
under the State plan approved under this subchapter,
a State plan for medical assistance shall—
(1) provide that, as a condition of eligibility for
medical assistance under the State plan to an
individual who has the legal capacity to execute an
assignment for himself, the individual is required—
(A) to assign the State any rights, of the
individual or of any other person who is eligible
for medical assistance under this subchapter
and on whose behalf the individual has the legal
authority to execute an assignment of such
rights, to support (specified as support for the
purpose of medical care by a court or
administrative order) and to payment for
medical care from any third party;
(B) to cooperate with the State (i) in
establishing the paternity of such person
(referred to in subparagraph (A)) if the person is
a child born out of wedlock, and (ii) in obtaining
support and payments (described in
subparagraph (A)) for himself and for such
person, unless (in either case) the individual is
described in section 1396a(l)(1)(A) of this title or

39a
the individual is found to have good cause for
refusing to cooperate as determined by the State
agency in accordance with standards prescribed
by the Secretary, which standards shall take
into consideration the best interests of the
individuals involved; and
(C) to cooperate with the State in identifying,
and providing information to assist the State in
pursuing, any third party who may be liable to
pay for care and services available under the
plan, unless such individual has good cause for
refusing to cooperate as determined by the State
agency in accordance with standards prescribed
by the Secretary, which standards shall take
into consideration the best interests of the
individuals involved; and
(2) provide for entering into cooperative
arrangements (including financial arrangements),
with any appropriate agency of any State
(including, with respect to the enforcement and
collection of rights of payment for medical care by or
through a parent, with a State’s agency established
or designated under section 654(3) of this title) and
with appropriate courts and law enforcement
officials, to assist the agency or agencies
administering the State plan with respect to (A) the
enforcement and collection of rights to support or
payment assigned under this section and (B) any
other matters of common concern.
(b) Such part of any amount collected by the State
under an assignment made under the provisions of this
section shall be retained by the State as is necessary to

40a
reimburse it for medical assistance payments made on
behalf of an individual with respect to whom such
assignment was executed (with appropriate
reimbursement of the Federal Government to the
extent of its participation in the financing of such
medical assistance), and the remainder of such amount
collected shall be paid to such individual.

41a
3. 42 U.S.C.A. 1396p(a) provides in pertinent part:
Liens, adjustments
transfers of assets
(a)

and

recoveries,

and

Imposition of lien against property of an
individual on account of medical assistance
rendered to him under a State plan

(1) No lien may be imposed against the property of
any individual prior to his death on account of medical
assistance paid or to be paid on his behalf under the
State plan, except—
(A) pursuant to the judgment of a court on
account of benefits incorrectly paid on behalf of such
individual, or
(B) in the case of the real property of an
individual—
(i) who is an inpatient in a nursing facility,
intermediate care facility for the mentally
retarded, or other medical institution, if such
individual is required, as a condition of receiving
services in such institution under the State plan,
to spend for costs of medical care all but a
minimal amount of his income required for
personal needs, and
(ii) with respect to whom the State
determines, after notice and opportunity for a
hearing (in accordance with procedures
established by the State), that he cannot
reasonably be expected to be discharged from
the medical institution and to return home,

42a
except as provided in paragraph (2).
(2) No lien may be imposed under paragraph (1)(B)
on such individual’s home if—
(A) the spouse of such individual,
(B) such individual’s child who is under age 21,
or (with respect to States eligible to participate in
the State program established under subchapter
XVI of this chapter) is blind or permanently and
totally disabled, or (with respect to States which are
not eligible to participate in such program) is blind
or disabled as defined in section 1382c of this title,
or
(C) a sibling of such individual (who has an
equity interest in such home and who was residing
in such individual’s home for a period of at least one
year immediately before the date of the individual’s
admission to the medical institution), is lawfully
residing in such home.
(3) Any lien imposed with respect to an individual
pursuant to paragraph (1)(B) shall dissolve upon that
individual’s discharge from the medical institution and
return home.
*****

